<html>
<title> - [H.A.S.C. No. 115-29]MILITARY PILOT SHORTAGE</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                            
                         [H.A.S.C. No. 115-29]
 
                        MILITARY PILOT SHORTAGE

                               __________

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON MILITARY PERSONNEL

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             MARCH 29, 2017


                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                                     
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
25-095 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="8cebfce3cceff9fff8e4e9e0fca2efe3e1a2">[email&#160;protected]</a>   
  
  
  


                   SUBCOMMITTEE ON MILITARY PERSONNEL

                    MIKE COFFMAN, Colorado, Chairman

WALTER B. JONES, North Carolina      JACKIE SPEIER, California
BRAD R. WENSTRUP, Ohio, Vice Chair   ROBERT A. BRADY, Pennsylvania
STEVE RUSSELL, Oklahoma              NIKI TSONGAS, Massachusetts
DON BACON, Nebraska                  RUBEN GALLEGO, Arizona
MARTHA McSALLY, Arizona              CAROL SHEA-PORTER, New Hampshire
RALPH LEE ABRAHAM, Louisiana         JACKY ROSEN, Nevada
TRENT KELLY, Mississippi
               Dave Giachetti, Professional Staff Member
                Craig Greene, Professional Staff Member
                         Danielle Steitz, Clerk
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Coffman, Hon. Mike, a Representative from Colorado, Chairman, 
  Subcommittee on Military Personnel.............................     1
Speier, Hon. Jackie, a Representative from California, Ranking 
  Member, Subcommittee on Military Personnel.....................     2

                               WITNESSES

Brilakis, LtGen Mark A., USMC, Deputy Commandant for Manpower and 
  Reserve Affairs, United States Marine Corps....................     3
Burke, VADM Robert P., USN, Chief of Naval Personnel, United 
  States Navy....................................................     3
Grosso, Lt Gen Gina M., USAF, Deputy Chief of Staff for Manpower 
  and Personnel Services, United States Air Force................     5
Peterson, MG Erik C., USA, Director, Army Aviation, United States 
  Army...........................................................     6

                                APPENDIX

Prepared Statements:

    Brilakis, LtGen Mark A.......................................    32
    Burke, VADM Robert P.........................................    38
    Coffman, Hon. Mike...........................................    31
    Grosso, Lt Gen Gina M........................................    46
    Peterson, MG Erik C..........................................    58

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Ms. Rosen....................................................    71
    Ms. Speier...................................................    69
                        
                        
                        
                        MILITARY PILOT SHORTAGE

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                        Subcommittee on Military Personnel,
                         Washington, DC, Wednesday, March 29, 2017.
    The subcommittee met, pursuant to call, at 2:00 p.m., in 
room 2118, Rayburn House Office Building, Hon. Mike Coffman 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. MIKE COFFMAN, A REPRESENTATIVE FROM 
     COLORADO, CHAIRMAN, SUBCOMMITTEE ON MILITARY PERSONNEL

    Mr. Coffman. The hearing comes to order. I want to welcome 
everyone to the Military Personnel Subcommittee hearing on the 
shortage of pilots in the military services. Today, we will 
hear from the services on their progress toward increasing the 
retention of military pilots, both officers and warrant 
officers.
    We know that pilot demand is increasing in the commercial 
sector, and the demand to hire qualified military pilots is 
higher than the available pool of candidates. This demand has 
led to a shortage of pilots across the services, with the 
problem being particularly acute in the United States Air 
Force, with a deficit at this point of over 1,000 total pilots.
    And we are here today to hear from the armed services on 
their plans to stem the exit of pilots from the military. We 
know we cannot buy our way out of this problem since the 
military cannot compete with the potential salaries and, in 
some cases, the lifestyle of the commercial airlines. So we 
must make sure the services are using all the levers in their 
control, from an increase in bonuses to changes in the 
assignment system to changes in promotion to incentives, these 
pilots--to incentivize these pilots to remain in the military.
    The Military Personnel Subcommittee will take every 
opportunity to thoroughly review and discuss the way forward to 
stop the outflow of military pilots. I look forward to hearing 
from the witnesses to understand the scope of the pilot 
retention problem and to assess the proposed resolutions for 
the services in increasing retention.
    Before I introduce our panel, let me offer Ranking Member 
Speier an opportunity to make opening remarks.
    Representative Speier.
    [The prepared statement of Mr. Coffman can be found in the 
Appendix on page 31.]

    STATEMENT OF HON. JACKIE SPEIER, A REPRESENTATIVE FROM 
 CALIFORNIA, RANKING MEMBER, SUBCOMMITTEE ON MILITARY PERSONNEL

    Ms. Speier. Mr. Chairman, thank you. And thank you to our 
witnesses who are here today.
    The Armed Services Committee has been receiving quite a bit 
of testimony over the last few months on the issue of 
readiness. There remains some debate on the severity of the 
readiness crisis or even whether it exists at all. For the most 
part, the solutions being considered by the administration and 
Congress involve vast funding increases so that the Department 
can buy new equipment and end strength.
    The shortage of military pilots does, of course, have a 
direct impact on readiness. So the reaction to the shortage has 
typically been along the same veins: to throw more money at the 
problem in the form of cash retention bonuses. But without 
addressing the root causes, this will do little to stem the 
departure of valuable experienced military pilots.
    As the witnesses and several members of the subcommittee 
are well aware, our service members are not in it for the 
money. Military pilots serve for love of country and for love 
of flying. There are many reasons besides money that military 
pilots leave the service for the private sector, including 
family concerns and a desire for more stability, too few flying 
hours, and too many assigned tasks unrelated to flying.
    Today, I am interested in hearing how each of the services 
are working to identify these root causes and how you use that 
analysis and the authorities Congress has provided to better 
target nonmonetary incentives as well as monetary in order to 
increase retention. I am also interested to hear what joint 
initiatives you may be undertaking together across services.
    It costs millions of dollars and years of training to 
produce just a single aviator. I am not telling you something 
you don't already know. We therefore need to ensure we are 
thinking broadly and creatively about how best to retain the 
skilled aviators the Nation needs.
    Thank you, and I look forward to your testimony.
    Mr. Coffman. Thank you, Ms. Speier.
    We will give each witness the opportunity to present his or 
her testimony and each member an opportunity to question the 
witnesses for 5 minutes.
    We would also respectfully remind the witnesses to 
summarize, to the greatest extent possible, the high points of 
your written testimony in 5 minutes or less. Your written 
comments and statements will be made part of the hearing 
record.
    Let me welcome our panel: Lieutenant General Mark A. 
Brilakis, Deputy Commandant for Manpower and Reserve Affairs, 
United States Marine Corps; Vice Admiral Robert P. Burke, 
[Deputy] Chief of Naval Operations; Lieutenant General Gina M. 
Grosso, Deputy Chief of Staff for Manpower and Personnel 
Services, United States Air Force; Major General Erik C. 
Peterson, United States Army, Director, Army Aviation.
    With that, General Brilakis, you are recognized for 5 
minutes.

 STATEMENT OF LTGEN MARK A. BRILAKIS, USMC, DEPUTY COMMANDANT 
  FOR MANPOWER AND RESERVE AFFAIRS, UNITED STATES MARINE CORPS

    General Brilakis. Thank you, Mr. Chairman.
    Chairman Coffman, Ranking Member Speier, and distinguished 
members of the subcommittee, I appreciate the opportunity to 
appear before you today to provide an overview of the Marine 
Corps inventory of pilots and aviators. Since the first Marine 
aviator flew in 1912, our pilots, like all marines, have 
answered the Nation's call, faithfully serving the American 
people and maintaining a first-class standard of military 
excellence. Today, Marine aviation is providing critical 
support to combat operations, and the Marine Corps is and will 
continue to be our Nation's expeditionary force in readiness.
    Aviators and our aviation maintenance personnel are 
critical to our ability to meet the continued and increasing 
operational commitments, operational tempo, and challenging 
deployment-to-dwell ratios.
    While the Marine Corps does not currently have a shortage 
of aviation personnel, we are experiencing a shortage of 
trained aviators, particularly in specific platforms, and gaps 
in the necessary qualifications of our enlisted maintenance 
personnel. This is in large part exacerbated by current 
readiness issues with our aircraft. Addressing these issues is 
one of mine and the Deputy Commandant for Aviation's highest 
priorities.
    Aviation readiness in the form of Ready Basic Aircraft and 
the resources to operate them throughout the year is the single 
most important factor in alleviating our aviation manpower 
challenges and contributing to retention. Our responsibility to 
train and to retain the best aviators and maintainers for our 
Corps is an operational imperative for us. We vigorously attack 
the accession and retention of all our Marine occupational 
fields, and doing so for the aviation field is particularly 
important due to the time and expense required to train these 
marines. We will continue to closely monitor the trends of our 
aviators, and we will take action should we begin to see a 
retention problem so that your Corps remains the most ready 
when the Nation is the least ready.
    Thank you for the opportunity to present this testimony.
    [The prepared statement of General Brilakis can be found in 
the Appendix on page 32.]
    Mr. Coffman. Vice Admiral Burke, you are now recognized for 
5 minutes.

    STATEMENT OF VADM ROBERT P. BURKE, USN, CHIEF OF NAVAL 
                 PERSONNEL, UNITED STATES NAVY

    Admiral Burke. Thank you, Chairman Coffman, Ranking Member 
Speier, and distinguished members of the subcommittee for this 
opportunity to discuss the status of naval aviation retention. 
I am honored to represent the men and women of the United 
States Navy.
    Naval aviation today is strong, the most capable maritime 
air force in the world, and our deployed units are ready to 
respond to any challenge. It is made up of more than 190,000 
military and Navy civilian personnel, including 10,250 Navy 
pilots and naval flight officers, who safely and effectively 
maintain, operate, and train with approximately 3,700 aircraft 
in support of worldwide carrier-based and expeditionary 
missions, to include combat operations.
    On any given day, two to five of our nine carrier air wings 
are deployed, returning from a deployment, or preparing to 
deploy. Our ability to sustain this effort depends upon a 
number of factors, among the most critical of which is our 
people. So I am here today to outline the current risks and 
projected manning challenges facing naval aviation and what we 
must do to sustain peak combat readiness. Our ability to 
attract and retain the very best young men and women our Nation 
has to offer is central to maintaining aviation personnel 
readiness.
    A number of factors are making this challenge increasingly 
complex, including an improving economy with low unemployment 
and increasing opportunity for employment in the private 
sector, particularly within the commercial airline industry. 
Additionally, naval aviators have expressed dissatisfaction 
with the quality of service, resulting from readiness 
challenges associated with limited aircraft availability and 
reduced flying hours while not deployed, which have inhibited 
timely attainment of tactical qualifications and subsequent 
career progression.
    Those who wear the cloth of this Nation do not do so for 
the money but rather to be part of something bigger than 
themselves. Historically, we have also been able to positively 
influence retention behavior by providing a fair compensation 
package, but more importantly, we provide an enticement few 
other employers can offer: a call to service.
    However, the allure of service is diminished when readiness 
shortfalls inhibit sailors' ability to get the job done. Today, 
aviation depots struggle to get our airplanes through 
maintenance periods on time. These delays impact the time 
sailors have to train and hone their skills prior to 
deployment. Such challenges are further exacerbated by low 
stocks of critical spare parts and an aging shore 
infrastructure. While our first team on deployment is always 
ready, our bench, the depth of our forces at home, is thin and 
is growing increasingly frustrated. Additionally, operational 
tempo, uncertain deployment schedules, excessive administrative 
burdens, and quality-of-life issues for sailors' families, 
including late permanent change of station orders and limited 
housing options, especially in non-fleet concentration areas, 
adversely affect individuals' decisions to stay Navy.
    Restoring short-term fleet readiness will require 
sufficient and predictable funding, which will allow our pilots 
to fly the hours needed to maintain optimum proficiency and 
ensure our ability to conduct timely maintenance on our 
airframes. It would also enable the Navy to restore stocks of 
necessary parts, return more aircraft to operational status, 
and better prepare them to remain deployed, as required. 
Finally, it would allow our pilots to do what they want to do, 
which is to fly.
    We will continue to aggressively pursue resolution of 
aviator retention challenges through effective and responsible 
use of available resources and refinements to our plans and 
processes for recruiting, developing, retaining, and addressing 
the quality of service needs of our aviators.
    We welcome your assistance, look forward to working with 
you to address the challenges we face, and we appreciate your 
continued support for initiatives designed to help us achieve 
optimum personnel readiness, improve quality of service, and 
retain the best and brightest young men and women this Nation 
has to offer. Thank you, and I look forward to your questions.
    [The prepared statement of Admiral Burke can be found in 
the Appendix on page 38.]
    Mr. Coffman. Thank you, Vice Admiral Burke.
    Lieutenant General Grosso, you are now recognized for 5 
minutes.

STATEMENT OF LT GEN GINA M. GROSSO, USAF, DEPUTY CHIEF OF STAFF 
  FOR MANPOWER AND PERSONNEL SERVICES, UNITED STATES AIR FORCE

    General Grosso. Thank you, Chairman Coffman, Ranking Member 
Speier, and distinguished members of the subcommittee for the 
opportunity to discuss the status of the Air Force pilot 
shortages and our efforts to address it.
    America's Air Force has been globally engaged for the last 
26 years in combat operations. During that time, we have 
provided air dominance through global vigilance, global reach, 
and global power for our joint force. Make no mistake: your Air 
Force is always there.
    However, being always there comes at a cost to equipment, 
infrastructure, and, most importantly, our airmen. And we are 
now at a decision point. Sustained global commitments and 
recent funding cuts affect capacity and capability for a full-
spectrum fight against a near-peer adversary. Compounding this 
issue, an upcoming surge of mandatory retirements for airline 
pilots and an increasing market for global commerce is causing 
the civilian aviation industry to begin hiring at unprecedented 
rates.
    This confluence of circumstances has birthed a national 
aircrew crisis. This crisis is the result of multiple factors: 
high operational tempo over the last 26 years, a demand for our 
pilots from the commercial industry, and cultural issues that 
affect the quality of life and service for our airmen.
    As we closed fiscal year 2016, the total force, including 
our Active, Guard, and Reserve Components, was short 1,555 
pilots across all mission areas. Of this amount, the total 
force was short 1,211 fighter pilots. It should be noted that 
the cost to train a fifth-generation fighter pilot to prepare 
him or her for their first operational squadron is 
approximately $11 million. A 1,200 fighter pilot shortage 
amounts to a $12 billion capital loss for the United States Air 
Force.
    Civilian aviation companies are actively recruiting the 
world-class experience of our rated airmen because Air Force 
pilots are highly attractive with their diverse experience and 
quality aviation training. Outpacing RAND's 2016 study, major 
airlines hired more than 4,100 pilots last year, and they 
increased the salary of their pilot force by an average of 17 
percent. These annual hiring levels are expected to continue 
for the next 10 to 15 years.
    Civilian job prospects are not the sole reason the Air 
Force is losing talent. A 2015 exit survey revealed additional 
influences to leave include too many duties unrelated to 
flying, inability to maintain work-life balance, and 
availability of civilian jobs, in that order.
    The Air Force's plan to address these shortfalls is three-
pronged: reduce requirements, increase production, and increase 
retention. The Air Force reduced the number of pilots filling 
operational planning positions in order to prioritize manning 
at flying squadrons. We also are leveraging our total force 
partners to bolster staff and operational planning positions, 
deployments, and in pilot training units, as appropriate.
    The Air Force recognizes the need to increase pilot 
production and will expand undergraduate pilot training to 
maximum capacity at 1,400 pilots a year. Future increases in 
throughput will require additional manpower, infrastructure, 
operations, and maintenance resources.
    From a retention perspective, the Air Force is implementing 
many nonmonetary programs to strengthen the culture and improve 
the quality of life and service for our airmen. For example, we 
reduced additional duties, eliminated non-mission-essential 
training courses, and outsourced select routine administrative 
tasks and operational squadrons, just to name a few. All of 
these efforts give time back to our aviators so they can focus 
on their primary duty: flying.
    We are also grateful for your support to authorize an 
increase in the aviation bonus to $35,000 a year, the first 
increase in 18 years. Through a tiered business case analysis, 
we will identify areas of greatest need to retain pilots in 
exchange for a commitment beyond their initial service 
commitment. We are also considering incentives for hard-to-fill 
assignments, when many airmen choose to separate from service 
in lieu of accepting the assignment.
    The Air Force is committed to a holistic strategy to 
maintain our pilot inventory as we face external and internal 
challenges. While we aggressively pursue creative means to 
respond to the demands on our pilots, our attention will be 
focused on developing an agile set of solutions. We will not 
hesitate to seek your support for revised or new authorities 
and resources, as appropriate. We appreciate your support as we 
address the competition for our talented aviators and move out 
on bold and innovative solutions.
    Thank you for your time today on this important matter. I 
look forward to your questions.
    [The prepared statement of General Grosso can be found in 
the Appendix on page 46.]
    Mr. Coffman. Lieutenant General Grosso, thank you so much 
for your testimony.
    Major General Peterson, you are now recognized for 5 
minutes.

STATEMENT OF MG ERIK C. PETERSON, USA, DIRECTOR, ARMY AVIATION, 
                       UNITED STATES ARMY

    General Peterson. Chairman Coffman, Ranking Member Speier, 
and distinguished members of the subcommittee, I appreciate the 
opportunity to discuss Army Aviation pilot shortages and our 
mitigation strategy.
    Army Aviation is an asymmetric advantage for our joint air-
ground team, providing the reach, protection, lethality, and 
situational understanding required to win. At the foundation 
are our highly trained Army Aviation professionals. The pilot 
component of our Total Army aviation force consists of 14,000 
rated aviators across the Regular Army, the Army National 
Guard, and the Army Reserve.
    Several years of sustained fiscal constraints have required 
the Army to make difficult resourcing choices. Out of 
necessity, we have prioritized short-term readiness over long-
term recruiting and training. We simply could not afford to 
train the number of new pilots we need to sustain a healthy 
force, a growing challenge that is masked by relatively healthy 
current aggregate strength. Specifically, we have accumulated a 
shortage of 731 Regular Army aviation warrant officers across 
year groups 2010 through 2017. We are temporarily sustaining 
acceptable aggregate pilot manning by relying on senior 
aviation warrant officers to fill junior positions, over 25 
percent of which are retirement eligible.
    We are addressing these challenges and we will build long-
term readiness through three lines of effort: retention, 
training throughput, and accessions. Retention of experienced 
pilots is key to mitigating 7 years of constrained training 
throughput. Although overall Army retention is healthy, we have 
seen a recent increase in Army Aviation warrant officer 
attrition from 7 to 9 percent annually. Given growing 
commercial demand, we expect this trend to continue unless 
addressed.
    In anticipation, we are formalizing targeted incentives 
that encourage pilots to continue their Army aviation careers 
and to retain those who achieve advanced qualifications. 
Additionally, we are correcting the accumulated deficit in our 
training throughput by fully resourcing our flight school. 
Fully resourcing our flight school is not a quick fix, and it 
must be phased in over several years. It will require 
consistent funding at increased levels to be successful.
    We are also increasing our aviation warrant officer 
accessions in concert with the increased throughput of our 
pilot training. Over the next 3 years, we will increase our 
Regular Army aviation warrant officer accession training 
throughput by nearly 170 students annually.
    In summary, we are addressing our pilot manning challenges 
while simultaneously meeting our enduring requirements. We 
currently have the sufficient authorities to implement our 
pilot retention, training throughput, and accessions increase. 
However, sustained, predictable, on-time funding, and relief 
from the Budget Control Act are vital to any enduring solution 
that we attempt to apply.
    Mr. Chairman, Ranking Member, distinguished members of the 
committee, thank you for your enduring support of our Army and 
your shared commitment to our Nation's defense.
    [The prepared statement of General Peterson can be found in 
the Appendix on page 58.]
    Mr. Coffman. Thank you, Major General Peterson. I wish to 
thank--oh. I won't do that again.
    So, if we look at the biggest reason on the demand side of 
this equation, I think it is two factors, and I don't know 
which one is dominant. So one factor is you have got an aging 
population of pilots on the civil aviation side, and that might 
have been aggravated by the fact that they increased the 
retirement age for pilots and so--and now we are hitting that 
increased retirement age. And so we are seeing some significant 
retirements. So that is obviously part of the demand side. But 
a significant part of the demand side too, I would think, is 
that, in response to an aviation accident--I am trying to 
remember what year it was. I think it was in New York State.
    General Grosso. 2012, I think.
    Mr. Coffman. 2012? There were--the reaction to that was to 
plus-up the number of hours required to, I believe, 1,500 
flight hours----
    General Grosso. Yes, sir.
    Mr. Coffman [continuing]. For the civilian airlines, FAA 
[Federal Aviation Administration] requirement. And so the 
quickest way to get that is to look at the military, because 
that is very hard to get on the civilian side. And so--and I 
don't know if that--if the FAA needs to revisit that number, if 
that was an overreaction to that accident or not, but that does 
seem excessive. So that is on the demand side.
    And then--so, on the supply side, I believe, I know, 
Lieutenant General Grosso, you briefed me on a retention bonus 
structure that you want to put forward. Do you want to tell the 
subcommittee about that? And before you do, let me just preface 
it by saying that I really think that, within the National 
Defense Authorization Act [NDAA], there really needs to be an 
econometric reevaluation of that number on an annual basis that 
will adjust accordingly. This situation is not going to last 
forever. It is demand-and-supply curve, and eventually that 
demand is going to be satiated at some level.
    General Grosso.
    General Grosso. Thank you, Chairman Coffman.
    Sir, you are correct. In accordance with the guidance we 
received in the 2017 authorization act, we did come up with a 
business model to understand where our greatest need was. And 
this model is the model we use to give all special and 
incentive pays across every skill set in the Air Force, which 
is about $927 million across the Air Force, but it has four 
factors: manning, retention, replacement costs, and replacement 
time. And manning is weighted at 40 percent, retention at 40 
percent, replacement cost at 10 percent, and replacement time 
at 10 percent. And basically you put all these numbers 
together, and you get rank ordering. And based on the increase 
in the bonus, which you gave us in the 2017 NDAA as well, we 
looked at the greatest need, and we stair-stepped it down to 
match the weapons systems that were most in need in accordance 
with your direction.
    And we will do this every single year. So the program we 
come out with this year could look different than the program 
we come out with next year because, to your point, the 
environment may change, and people that choose to come and go 
will change.
    Mr. Coffman. Is the bonus structure the same across the 
board? Are you--do you mirror the Air Force, or do you all have 
your own structure that you are looking at?
    General Brilakis.
    General Brilakis. Sir, thank you.
    And, first of all, thank you to the Congress for the 
authorities in the NDAA.
    Since 2011, the Marine Corps has not paid a retention bonus 
to pilots. Our inventories were solid, and attrition was not a 
challenge.
    Now, what we did, we came down from 202,000, and we have 
arrived at 182,000. In doing that, in leveraging all the 
authorities that you gave us, the priority was to reduce 
numbers of marines. And we saw an unequal reduction. And our 
retention, which is ideally about 91 percent for aviators, in 
the officer community, fell down to 86 and 87 percent. So we 
lost some aviators. We have made that up through accessions. 
And our challenge right now is I have got about 500, just over 
500 officers still in the training pipeline, more than I need.
    Mr. Coffman. Okay.
    General Brilakis. Okay? This year, the Commandant, because, 
in addition to reducing the size of the force, we are 
introducing new type/model/series into the inventory, the F-35, 
we are continuing the MV-22, the new versions of the Cobra and 
Huey, et cetera, the Commandant is going forward requesting 
from the Secretary of the Navy and the Secretary of Defense 
authority to pay a retention bonus in three communities: F-35; 
F-18, because the legacy platforms are our most challenged 
platform right now; and then the V-22. F-35 and V-22 are 
currently growing communities, and we don't want to be caught 
short in those aviation communities.
    When we came down in the reduction, what we found is we are 
a bit imbalanced. We have got more majors and lieutenant 
colonels than is preferred. We have fewer company-grade 
officers than we really need to be flying in our tactical 
squadrons. And so we want to make sure that we have the 
opportunity and leverage to maintain those young officers as 
they come out of their required commitment to us and capture 
them for that extra bit of time before we have got them by the 
throat.
    Mr. Coffman. Thank you, General Brilakis.
    Ms. Speier, you are now recognized.
    Ms. Speier. Thank you, Mr. Chairman.
    Thank you all for your service to our country. General 
Grosso, the $35,000 bonus, I am presuming that that is not 
going to be a check that is presented to the airman on day one.
    General Grosso. That is correct, ma'am. Aviators in the Air 
Force have a 10-year pilot service commitment. So that is when 
they graduate from the undergraduate pilot training. So that 
training takes a year, and after that year, they have a 10-year 
commitment. So it is typically at the 11th year of service that 
an airman would be offered some form of bonus should we need 
it.
    Ms. Speier. But is that $35,000 given in a lump sum, or is 
it given per year based on the number of years that the aviator 
would continue to serve?
    General Grosso. So it can be a range of options. And every 
year we look at this differently. This year we are proposing to 
offer contracts for a year, 2 years, 5 years, 9 years, and 13 
years, and you can take some of that up front, and some of it 
will be anniversary payments.
    Ms. Speier. So no one aviator is going to get a $35,000 
check, or will they?
    General Grosso. It would--if they took it for a year, yes, 
ma'am, they would. And they would--they would owe us an 
additional year Active Duty service commitment.
    Ms. Speier. So, conceivably, an aviator would stay a total 
of 2 years and get a $35,000 bonus in day one? What happens if 
they decide to just quit? Do you claw that back?
    General Grosso. Yes, ma'am. Yes. You must recoup. And the 
thinking on the 1 year was because of the work that we are 
doing on the culture piece, those things take time. And we have 
to build trust with our airmen, because after significant long 
periods of conflict where we took our eye off the ball a little 
bit, we have talked about putting resources back in the 
squadron. One of our chief's primary goals is to revitalize the 
squadron, and we think that is getting traction, but that will 
take time. And we have gotten feedback from airmen they--if 
they--they are going to give us a year, basically. So they are 
going to take it for a year and see if we really mean what we 
say with some of these quality of life and quality of service, 
and then that gives them a chance to relook and take--in 
another year say, ``Hey, are we doing better? Is my family in a 
good place? Did you do what you say you are going to, Air 
Force?'' And then, next year, they will go into a new--we will 
look at the environment; we will look at what our retention 
patterns look like.
    Ms. Speier. Okay. I am trying to get another question in.
    I particularly wanted to talk about nonmonetary 
inducements. And I noted that, in the report, there was a 
reference made to 260 days away during deployment for some of 
these aviators and 110 days away even when you are on home 
temporary duty. So those are long stretches away. And in your 
actual statement, General Grosso, there is a chart here that 
shows that actually the ranking of the lure of civilian jobs is 
much lower than additional duties, which was at 37 percent, and 
maintaining work-life balance and meeting family commitments, 
which was at 31 percent. Availability of civilian jobs was at 
24 percent.
    So I think the lure of commercial airline jobs, while it 
does have some allure, I think addressing those top two would 
be significant. So, to each of you, I would like to ask the 
question in a minute 36, what, if anything, you are doing to 
try and address the nonmonetary issues.
    General Brilakis. Thank you, Ranking Member Speier.
    We did a survey about 18 months ago, and talking to our 
enlisted force and our officers on those issues of most 
importance to them. Flying hours is the number one concern. 
They want more time in the cockpit. They want more time in the 
back. Number two was the parts available to get those aircraft 
up so they could do that flying. And then the last--the third 
issue, which was of most concern to them, was the cycle, the 
tight cycle. As you know, the Marine Corps is on about a 1-to-2 
ratio for deployment to dwell, and that is a very tight cycle. 
So three concerns: one, they want more time to fly; they want 
more parts to fix; and they would like a little bit more time 
at home.
    Ms. Speier. Okay. Admiral Burke.
    Admiral Burke. Yes, ma'am. Similar situation for the Navy 
as the Marine Corps. It is flying time first. Again, they are 
getting plenty of it while they are deployed. Our deployment 
lengths had ramped up considerably as our force size went down 
over the course of 15 years, while our, you know, number of 
ships at sea on any given day remained the same. That is 
starting to come under control now.
    The things like PCS [permanent change of station] move lead 
times shrank down as we used PCS funding as a means of making 
our top-line budget come within under control. So families were 
getting a month, month and a half of lead time to move in the 
summer going to non-fleet concentration areas where it was 
difficult to find housing and things of that nature.
    And then just other sort of normal quality-of-service types 
of things, administrative distractions, career flexibility. We 
have really been using the tremendous flexibility that you gave 
us with the Career Intermission Program to good effect, 
particularly in the aviation community. We have had 13 aviators 
in, and 9 have come through it. In fact----
    Ms. Speier. Okay. My time has expired. Let's see if we 
can----
    Mr. Coffman. Go ahead.
    Admiral Burke. Sir, we just had a female O-4, was one of 
our top helicopters pilots that would have gotten out. We were 
able to convince her to take advantage of the Career 
Intermission Program so that she could get out. She was married 
to a naval aviator as well. And she got out, started a family. 
Just finished her intermission. Came back in, did her 
department head tour, did absolutely phenomenally, last week 
screened for commanding officer. So another success story 
there.
    But it is things like that where we have to add the career 
flexibility while our pilots are out of the cockpit to do life 
things and come back in and reenter the cockpit and be 
competitive in their careers.
    Mr. Coffman. Mr. Russell, you are now recognized for 5 
minutes.
    General Grosso. Ma'am, we also have done--I would put it--
--
    Ms. Speier. Actually, maybe you could fold your answers 
into responses.
    Mr. Coffman. We can come back to that.
    Ms. Speier. Oh. We will come back to that question.
    Mr. Coffman. Mr. Russell, you are recognized for 5 minutes.
    Mr. Russell. Thank you, Mr. Chairman.
    And I appreciate all of the things that you do. A couple of 
the questions--it is bonus question time. How much does 
American Airlines offer bonuses up to their pilots, for 
regional pilots? Bueller? Anyone? It is $35,000. Interesting 
figure.
    And so, you know, once again, we go in this chasing around 
that the $35,000 is some astronomical figure, when the reality 
is that is competitive to what the airlines are providing to 
very junior pilots in the course of their careers. And, you 
know, the phrase that comes to mind is nothing's too good for 
the troops, and nothing's what they get, you know.
    So I applaud, you General Grosso, for putting together the 
proposals for the bonuses. They do retain.
    And, General Peterson, if I may, because of your extensive 
background in 160th SOAR [Special Operations Aviation 
Regiment], you are a very unique pilot with a very unique 
background. If you don't have the types of pilots in our 
special ops aviation community, what impact does that have on 
the missions that our Rangers and our special operations forces 
[SOF] community do that we rely so heavily on for most of our 
missions? Could you speak to that for a little bit?
    General Peterson. Without the retention of hand-selected 
and then exceptionally highly trained aircraft commanders, 
pilots, and command--air mission commanders, one, we would not 
be able to accomplish the complex missions in support of our 
elite SOF ground forces that our Nation asks us to do. The 
physical skill, the planning ability, the judgment, the 
maturity, and the leadership would not be present, and we would 
not have the ability to accumulate and grow that in support of 
the missions that they are asked for.
    Further, we would not be able to sustain those capabilities 
over time. Those same leaders that are selected and are 
retained at some cost and investment are also the mentors and 
teachers for the next generation. So they serve to accomplish 
their missions today, but they also grow the next generation 
that our Nation will rely upon.
    Mr. Russell. Well, I can tell you from my own experiences, 
even as a combat infantryman, without helicopters to have 
conveyed us to a location, we would have had a lot less options 
on how to get to the enemy. And even without the United States 
Air Force, our paratroopers would have no delivery capability 
of any length to get to or even logistics or emergency supply 
parts or any number of things.
    So, really, this pilot shortage goes beyond just having, 
you know, somebody with the flight suit and standing next to 
the aircraft with a cool picture. It literally is everything 
that our military relies on no matter what their capacity is. 
And yet a typical warrant--you are talking about the aging of 
the warrant population. Even a W4, what are they making? 
$60,000 a year? I am not sure what it would be today. Anybody 
have an idea of what that would be?
    General Peterson. It would be closer to $80,000 a year.
    Mr. Russell. 80? Okay. So $80,000. And yet it takes $11 
million to train a pilot to their first combat mission. Now, 
you know, I am not a mathematics major or a rocket scientist, 
but, you know, $11 million or $35,000. Let's see, retain them a 
couple more years or not. It seems like a good investment 
because when we don't do it, much like the cliff that we had 
with our air traffic controllers in the 1980s, when President 
Reagan said, ``Okay, fine, you want to protest; we will just 
hire a bunch of new ones,'' and they did, but then they all 
left in one shot. And 25 percent of the pilot force just in the 
Army, not only are you losing your most experienced warriors as 
they go out of the cockpits and out of the service, but you 
don't readily replace them, and then you are not going to have 
the incentive to bring them in.
    And so I just want to say, for the record, I applaud what 
you do. We have to fix the problem. We can't ignore it and we 
can't say: ``Hey, you know, we will give you some busted up, 
you know, Army relief service furniture or something in your 
quarters, and that will be a good incentive for you.'' We have 
to do better.
    So, with that, I am out of time. And thank you, Mr. 
Chairman.
    Mr. Coffman. Thank you, Mr. Russell.
    Mr. Gallego, you are now recognized for 5 minutes.
    Mr. Gallego. Thank you, Mr. Chairman.
    This is really for all the witnesses. So better data is 
obviously critical in shaping the response to the emerging 
pilot shortage we have in the military. Have we undertaken a 
comprehensive survey to better understand the pilot attitudes, 
whether it is across the services or each individual services 
or within each individual MOS [military occupational 
specialty], or whatever it is called on the officer level, and 
the factors that drive their decisions to either renew their 
commitments to serve or to pursue other careers with commercial 
airlines or just outside the military altogether?
    And we can just start from left to right with Lieutenant 
General Brilakis.
    General Brilakis. Thank you very much, Representative 
Gallego.
    As I said earlier, about 18 months ago, we pursued a 
specific survey to take a look at both officer and enlisted 
attitudes. We got good information from that. We are working on 
a longitudinal set of surveys that will cover a marine either 
from their first enlistment all the way through a 30-year 
career. It allows us to go in and take a look at attitudes on 
retention and separation, et cetera. So we believe that that 
will provide us better information in the future.
    The specific targeted survey that we did gave us really 
great feedback. It is not about money. It is not necessarily 
about jobs. It is about doing what they came into the Marine 
Corps to do, which is to fly airplanes, fix airplanes, and then 
serve those aircraft.
    On the officer side, our challenge is the number of Ready 
Basic Aircraft. It has been an issue. We have worked hard 
through it. And having those aircraft available to get that 
flight time, get the marine--get the pilots those hours per 
month that are necessary.
    On the enlisted side, it is the same thing. It is the 
satisfaction of seeing an aircraft you are responsible for 
actually take off loaded with bombs to go do the mission. And 
so those are the things we are working on as well.
    On our enlisted side, we are looking at--we do bonus for 
retention, but we are also looking to--seeking to capture 
experience, to retain it into--in the squadrons, and that is 
another initiative we are bringing forward this year.
    But you are absolutely right. Data is important. And we 
have specific data for right now, but we are working on having 
better data for the future.
    Mr. Gallego. Thank you.
    Admiral Burke. Yes, sir. We do the exact same approach in 
the Navy, looking at everything from things that will inform 
our entire portfolio of Sailor 2025 efforts, which is aimed at 
everything under the nonmonetary aspect of things, everything 
from how we do detailing and assignments processes, to 
evaluations and fitness reports, to promotion boards and 
promotion policies, all the way down to, you know, our physical 
fitness programs and health and wellness things.
    But in addition to looking at all that data and our family 
services and spousal employment and all those sorts of aspects, 
I mean, we have a very good pulse on exactly where we stand 
with retention at our critical points. We target our retention 
bonuses for our naval aviators at the two critical points, 
which are department head, which is at the lieutenant commander 
level for naval aviators, and then at the post-command level 
after they have had O-5 or commander command. And we vary the 
rate at which we pay the bonuses by the type, model, and series 
of aircraft. And that is really largely a reflection of what 
their opportunities, how their job skills might translate into 
the outside job markets.
    And we know exactly how many have committed, because the 
contract lengths are designed to obligate them through that 
critical career milestone. So we have a very good indicator at 
all times of how many we have committed. And we talk to them 
almost on a weekly basis, how many are on the fence, how many 
are likely to say yes, and how many are definitely going to say 
no. So we keep a pulse of that all the time, and that helps 
inform our force management, if that answers your question.
    General Grosso. We do, sir. We have--there is a survey you 
will see in the written statement, which is a retention survey 
that goes to the entire force every other year, and that is the 
data that Ranking Member Speier pointed out. But we also have 
exit surveys, and an exit survey is a person that has told us 
they are going to leave. They have established what we call the 
date of separation. And so that gives you sort of more real-
time thinking.
    And that--from our pilots, the data is about the same. 
Maintaining work-life balance is the number one reason, and 
that is 45 percent. Availability of civilian jobs is 28 
percent. And the potential to leave your family. And if you 
think about an aviator, over their 12 years of commitment, in a 
1-to-3 dwell, every 3 years, they have deployed 180 days. And 
they come back, because they are not proficient in the high-end 
fight, they go on TDY [temporary duty] a lot to get proficient 
again. So, when you are forcing the--sort of looking at their 
options, in the structure of the civilian airline industry, 
there is an incentive to get in early. So I realize I am out of 
time, but----
    Mr. Coffman. Go ahead, please, General Grosso. Go ahead and 
finish.
    General Grosso. So the way the civilian industry is 
structured, it is a sort of first-in/move-up system. So, as you 
are at the 12-year point and you are looking back on a very 
busy life and things that we need do better on quality of 
service, which we are looking on, they say, ``Gosh, should I 
get out and start my line number''--many of them affiliate in 
the Reserve Component--so that they can start that successful 
second career for their family. And that is why that 12-year 
point is very important from a civilian hiring. And we know, we 
have data going back 30 years, that as airline hiring goes up, 
retention goes down, and we can correlate that.
    Mr. Coffman. Mr. Bacon, you are now recognized for 5 
minutes.
    Mr. Bacon. Thank you, Mr. Chairman.
    I appreciate all four of you being here today again for 
subcommittee. Grateful to you.
    What I would like to ask those who are doing the bonus, do 
we have some data that shows that it is actually effective, 
that it is a good return on investment, because we know how 
many people sign up for the bonus, but how do we know how many 
of those would have signed up anyway to stay in? Do we have 
some data that shows that this does bring a sizeable number 
over?
    And the genesis of my concern is a lot of the reasons 
people are getting out has very little to do with the money 
itself; it is more about the other factors that were mentioned 
here. So just curious, can we correlate the number of folks 
that take the bonus by percentage or that said that that was 
the main reason why they stayed in?
    General Grosso. I can't correlate it that way, but what I 
can tell you, we did look: people that don't take the bonus, 96 
percent separate. So we do know that people that don't take the 
bonus separate, and we do know that about two-thirds of them go 
to the airlines. So one-third don't.
    But to your point, there is no question that you are paying 
some people to stay. So we think--I think all of us would 
agree, one-third, one-third, one-third, but because it is such 
a precious resource and because we invest so much money to make 
them, we think the tradeoff is worth it.
    Mr. Bacon. But we are not really too sure how many of those 
who sign up for the bonus would have stayed in anyway.
    General Grosso. No. You are correct.
    Mr. Bacon. Okay.
    Admiral Burke. Similar situation for the Navy. You just--
you get to the point where, for some individuals, it could be 
economic, right. Exactly right.
    General Peterson. With respect to the Army, sir, we are not 
applying the bonus at this point to our overall forces. We have 
used it as a targeted incentive in our special operations 
community only. And we feel like we have very good return on 
investment and trends with that very small population, but we 
are anticipating employing some of these incentives beginning 
in fiscal year 2018.
    Mr. Bacon. Okay. And I know you are not doing the bonus, I 
don't believe, on the Marine side, right?
    General Brilakis. No, sir. This year for--in fiscal year 
2018, we will, for the first time since 2011, we will offer a 
retention bonus in three communities, because those are the 
communities where we believe we have some concerns.
    But to your point, statistically, analytically, et cetera, 
there is really not a whole lot of connection between paying a 
bonus and guaranteeing retention.
    Mr. Bacon. It seems to me that we could get that data with 
a little bit of research and asking the right questions, 
because I think it would help make the case better that this is 
a good investment, seeing direct correlation of more people 
signing up. Just my thoughts.
    Thanks, Mr. Chairman. I yield back.
    Mr. Coffman. Thank you, Mr. Bacon.
    Let's see. Mr. Abraham, you are now recognized for 5 
minutes.
    Dr. Abraham. Thank you, Mr. Chairman.
    By trade, I am a physician, and when I refer a patient to a 
heart surgeon, I hopefully always send them to the best, 
because they actually hold a life in their hands, much as your 
aviators do. The difference is they also hold the life in their 
hand while, by the way, dodging bullets. So it is a whole 
different dynamic on the level of our--not only our military 
aviators, but our military personnel in all.
    The other aspect is the intellectual knowledge base of an 
aviator that has been in service for 10 to 11 years is 
phenomenal, and I would compare that to a top tier executive 
level in a company as IBM, one of the big ones. And when they 
give them bonuses, they are not talking thousands; they are 
talking millions of retention bonuses to keep that intellectual 
property in place.
    Major General Peterson, I will ask you the question first. 
How does a CR [continuing resolution] for the remainder of 
fiscal year 2017 affect pilot shortage?
    General Peterson. In the very straight, simple terms, sir, 
it stops our initiatives to mitigate this. We will not be able 
to increase the throughput in our flight school with respect to 
investments in additional instructor pilots, contract 
instructor pilots, contract maintenance, as well as sustained 
additional airframes for the school. So it will essentially 
defer this problem another year until we have the requisite 
funding that has been budgeted for by the Army to implement 
these incentives. And then we will get closer to that cliff 
that we discussed about with the top-heavy population, the 
disproportionate top-heavy retirement eligible population.
    Dr. Abraham. If we carry that forward with an imposition of 
sequestration in 2018, what does that do for your readiness?
    General Peterson, I will start with you.
    General Peterson. In addition to exacerbating the pilot 
readiness challenge that we have, we will suffer readiness 
hurdles. With respect to airframe material readiness, very 
significant and important modernization programs will either be 
halted or slowed, to include the CH-47 Block 2, the Improved 
Turbine Engine Program, the Future Vertical Lift initiative and 
program. Probably the most salient and important is that we 
will slow or defer very important protection and 
countermeasures initiatives that are underway right now.
    Dr. Abraham. Other comments on the CR 2017, how will it 
affect each of y'all's services? If you don't mind going down 
the line.
    General Brilakis. Sir, if I--yeah. Real quickly, sir, very 
similar to General Peterson. We won't be able to execute the 
bonuses that we would like to. Our retention season actually 
begins in July. So that will be impacted. The funds that are 
available to do that won't be available. We will by the 
summertime have to basically idle 24 flying squadrons.
    Dr. Abraham. Wow.
    General Brilakis. And then on top of that, with the lack of 
spares and repair parts, we are going to take a step backwards 
on the readiness efforts that we have done to bring back the 
number of Ready Basic Aircraft that are available for our 
pilots to fly.
    Dr. Abraham. Admiral Burke.
    Admiral Burke. For the Navy, we would be forced to reduce 
flight hours across all Navy aviation; 15 to 20 percent 
reduction in fleet replacement training squadrons. Those are 
the training squadrons. One-third of our junior aviators would 
not be able to complete basic qualifications and 
certifications. So squadrons going forward would be 20 to 30 
percent undermanned, and that would pay forward for several 
years. I would be forced to cut accessions by a thousand going 
forward in April. That would translate directly to gapped 
billets at sea and ashore, including ultimately pilots, 
instructors, and aviation maintenance folks. And then there 
would be impacts to PCS fundings, which would cause delays in 
issuing orders and quality of service and quality of life, as 
we have discussed earlier. And then, similar to what General 
Brilakis laid out, we would have to stop bonus payments on most 
critical skills. So it would impact retention of, you know, 
experienced and specialized sailors, including aviation 
officers and aviation maintenance rates.
    Dr. Abraham. General, real quick.
    General Grosso. I echo--I mean, very much like the other 
services, it would have a devastating impact on our readiness, 
and we would have to stop flying, which has all the other 
negative consequences of trying to keep these aviators in the 
force.
    Dr. Abraham. Thank you, Mr. Chairman.
    Well, just one comment. You know, it is my understanding 
that now it is difficult not only to maintain just currency but 
certainly to maintain readiness. And those are two different 
numbers of flight hours, I understand that; to be able to just 
to fly the plane but to be able to fly and fight are two 
completely separate and distinct issues.
    Thank you, Mr. Chairman, for the indulgence.
    Mr. Coffman. Dr. Wenstrup, you are now recognized for 5 
minutes.
    Dr. Wenstrup. Thank you, Mr. Chairman. Thank you all for 
being here today.
    One question. What is tougher right now, recruitment, 
initial recruitment, or retention? What do you have the most 
trouble with? If we can go down the line.
    General Brilakis. Sir, fortunately, neither is a problem.
    Admiral Burke. Navy overall recruiting is good. We just 
made our 120th consecutive month of meeting our recruiting 
mission. We are seeing beginnings of fraying at the edges.
    Overall, retention is good, although we are seeing 
individual specific areas, such as aviation officers, nuclear 
rates, special operations forces, and information warfare, you 
know, cryptological types of rates--we are having individual 
retention challenges there, but we are able to manage those 
with the authorities we have right now.
    General Grosso. We have no issue recruiting talented people 
to be aviators. Our sole issue is retention, and we are not 
retaining enough to sustain the force.
    General Peterson. We are not facing challenges with 
recruiting either. However, that recruiting pool is 
artificially restrained because of our throughput challenges 
due to tough fiscal decisions. We are seeing leading indicators 
of impending retention challenges based on the retirement 
eligibility of our force as well as the increase in commercial 
demand.
    Dr. Wenstrup. And I just have another point of curiosity, I 
guess. You are getting exit information, exit surveys. On the 
exit survey, do you ask them why they joined to begin with, or 
do you know that on entry? I imagine the entry reason is pretty 
much the same for everybody, to be honest with you, for many 
reasons, wanting to serve, et cetera, but on their exit, do you 
ask them why they joined? And I am just curious what changed 
for them to want to leave.
    General Brilakis. So what our experience--I commanded the 
recruiting force for a couple of years. So we had the 
opportunity to kind of watch that. And you are right. I mean, 
the American youth join the service in general for a number of 
predictable reasons. Why they join each different service, 
again, some predictable reasons.
    Why they leave, sometimes it is the opportunity to remain 
in the Marine Corps. We only retain about 27 percent of every 
year's cohort because two-thirds of our force is in the 
operating forces and about one-third is in the supporting 
establishment. And it is a young force; it is a fighting force.
    When I answered your question, I was talking about the 
aviation enterprise, aviation maintainers, et cetera. We have 
some retention issues in the cyber force and some of the high-
demand, low-density MOSes. Some of the reasons folks leave 
those is because there are opportunities on the outside. I 
mean, I can take a cyber marine who is getting paid maybe 
$55,000 a year; he is leaving and picking up a job for about 
$190,000 plus. Those are challenges that--I don't think you are 
going to give us enough money to throw at those particular 
problems, but why they come and why they go have been pretty 
much standard across the board. The thing that is amazing right 
now is, with the employment rate as low as it is, we are still 
finding good people who want to serve.
    Dr. Wenstrup. That is good to hear. Good Americans. I am 
referring more to aviation than anything else. Admiral.
    Admiral Burke. I think a lot of people--well, now that you 
have changed the question to be specific to aviation, I mean, 
they join for the adventure and to be that part of something 
bigger than themselves. And I think they find that here and 
they are generally very happy with it.
    Why they leave, I mean, all the reasons we talked about 
earlier, but then there is the family separation thing. We ask 
a lot of our folks, and it is not for everyone.
    Dr. Wenstrup. I am guessing a lot, when they enter, are 
younger, for one, and possibly single at the time.
    Admiral Burke. They grow up and mature, and things change.
    Dr. Wenstrup. Yeah. General.
    General Grosso. Yes, I would agree with that. They are just 
at different points in their life. And I think you make 
decisions depending on your situation 12 years later, which is 
very different than when you joined.
    Dr. Wenstrup. Right.
    General Peterson. Although I can presume that trends are 
probably the same, I am not aware of any specific question that 
we are asking on an exit survey that would substantiate that.
    Dr. Wenstrup. All right. Thank you. I yield back.
    Mr. Coffman. Mr. Kelly, you are now recognized for 5 
minutes.
    Mr. Kelly. Thank you, Mr. Chairman.
    And, General Peterson, I am going to start with you real 
quick and talk about ARI [Aviation Restructure Initiative]. And 
they asked about--or they were going to get UH-72 Lakotas to 
modernize and enhance pilot training at Fort Rucker, where they 
train our aviation pilots in the Army. The goal was to retire 
the older fleet and create a more relevant, safer, and cost-
effective training.
    Could you update us on how the modernization of helicopter 
pilot training is progressing, to include observations from the 
initial pilot training classes on the Lakota trainer?
    General Peterson. Our modernization efforts are slowed a 
bit right now, just partially due to fiscal decisions on our 
fielding plans for the Lakota as well as some ongoing 
litigation.
    The Lakota is proving to be an exceptionally reliable and 
very beneficial trainer. It is too early to comprehensively 
substantiate the full benefit.
    What we do know is that the use of a more complex aircraft 
in initial pilot training, a twin-engine aircraft with 
essentially a modern glass cockpit, is translating very well to 
the assimilation of skills in the combat aircraft that the 
initial-entry aviators transition into for their subsequent 
training phases. And we are looking forward to substantiating 
that and objectively documenting that as we get to the pure 
fleet.
    At this point, we are roughly half-and-half, with respect 
to the very early phases, with our legacy fleet training 
aircraft and the Lakota.
    Mr. Kelly. And we have talked about--I am not going to put 
you on the spot, but the bottom line is there is a lawsuit that 
is slowing that down. And that definitely has an impact on not 
going forward and replacing with something, that has an impact 
on our training and readiness and the ability to train our new 
pilots.
    Would that be correct, General Peterson?
    General Peterson. It does. But, again, we are compensating 
with the extension of the legacy aircraft, which was proven in 
past years, sir.
    Mr. Kelly. And this is for Lieutenant General Grosso.
    One question that I have, the $35,000 bonus, it amazes me 
that anyone questions that. After 5 years in service, that 11-
year captain that gets out or a warrant officer, that 11-year 
person at that time that is critical, when they go to the 
airlines 5 years later, they are probably at the airline making 
double what a U.S. Army major or a U.S. Air Force major or a 
WO3 would be making at that point. Would be that correct?
    General Grosso. The data we have right now is very quickly 
you will get to $160,000 a year, so probably. I haven't really 
done the math, but I think that is correct.
    Mr. Kelly. Yeah, quite a bit. And that is not for the 20-
year guys. I know. I have missed every bonus I have ever been 
offered because I was too old to get it and been in too long 
when it became critical. But that is those 11- and 12-year 
people at that critical stage, that midlevel management, that 
is when that $35,000 is applied, that critical point in their 
career. Is that correct?
    General Grosso. That is correct.
    Mr. Kelly. And this is for all three of you all. And I 
don't know if you have experienced it, but there are some 
things you can't replicate--you know, the CTCs [Combat Training 
Centers] in the military and the Army or your Red Flags in the 
Air Force or those things. But does anything replicate combat 
experience other than combat experience?
    General Brilakis. I think it is relative to the combat 
experience you have gotten. If you are doing low-level 
counterinsurgency operation, you are getting a much better 
overall training experience at Red Flag or at the Fighter 
Weapons School or at WTI [Weapons and Tactics Instructor]. That 
is all high-end stuff against simulated high-threat IADS 
[integrated air defense systems]. But, I mean, combat is 
combat.
    Mr. Kelly. And, again, those things are great, and I have 
done many of those things, but it still doesn't replicate.
    And then I guess the final question that I would have is, 
it is not just the flying experience that you lose, it is also 
that command experience, that leadership, that management. So a 
brand-new flight trainee coming out of Columbus Air Force Base 
in my district does not have the same skills as that major who 
has been an operations officer for a squadron.
    Would that be correct, Lieutenant General Grosso?
    General Grosso. Yes, sir, it would.
    Mr. Kelly. And so, just taking out the flying side of that, 
you can't replicate that leadership experience at those 
critical levels, midlevel management, whether you are talking 
about maintenance in the NCO [noncommissioned officer] level or 
warrant officers who were WO3s or majors or senior captains. 
You can't replicate that anywhere, can you?
    General Grosso. No, you can't. It takes 10 years to make 
it.
    Mr. Kelly. And if you get out, you can't get back in and 
start over at the same spot, can you?
    General Grosso. Well, we do have programs to bring people 
in that have separated. But it is challenging because we don't 
have enough capacity to train them again.
    Mr. Kelly. Yes, ma'am. I yield back, Mr. Chairman.
    Mr. Coffman. Thank you, Mr. Kelly.
    Let's see. Colonel Martha McSally, United States Air Force, 
retired A-10 pilot, you are now recognized for 5 minutes.
    Ms. McSally. Thank you, Mr. Chairman. Thanks, all of you, 
for your testimony.
    I think you have talked about it at some level, but some of 
the conversations I have had with some of the leadership in the 
services is about it not being a win-lose and a finite pie when 
we are looking at this as a nation.
    We have requirements for our airlines, and a good, strong, 
growing economy and airline industry is good. We have 
requirements for our military. And if we are looking at this as 
a finite pie and win-lose, in the end, we are not going to be 
able to compete, probably, with quality of life and, you know, 
resources, and especially at a time where pilots are not flying 
and, because of sequestration, they are doing more ``queep'' 
and all the stuff that drives you crazy, right, and impact on 
the family.
    So what are you all thinking innovatively about turning 
this into a win-win, to partner with the airlines for 
individuals to be able to fly in the military and maybe have 
seasons of flying with the airlines and then come back for a 3-
year tour later on and then go back to the airlines, so that we 
are partnering together and we are all winning as opposed to 
competing with each other?
    General Grosso. So, ma'am, our chief is meeting with the 
senior executives in the airline industry, and we are looking 
at just that. And based on the authorities that Congress has 
already given us with the Career Intermission Program, we are 
going to see if we can get, to your point, a win-win and get 
some predictability for the airmen, who may want to start their 
line number early, and get predictability for the Air Force and 
how can we get a better win-win.
    And we are also starting to look at can we allow aviators 
to fly part-time on their own.
    So I think those are just two ideas, and there are, I 
think, many more ways to think about this, for the Nation to 
get a win-win between the military and the private sector.
    Ms. McSally. Yeah, I totally agree. And when you think 
about the bonus and people at that 12-year point, you know, 
taking the bonus, in the past, maybe you get somebody inching 
towards the 13, 14, with the old retirement system, even if 
they didn't necessarily want to stay, they would start to make 
a decision like, ``Well, I might as well just suck it up and 
get to 20 now.'' I mean, not everyone is like me, thinking 
about getting out at 18, the last time that I previously did. 
Most normal people, I think, as they get closer to 20.
    Are you concerned about the blended retirement system and 
that not providing a hook, you know, to bridge them from, say, 
13, 14 to 20 now, that they have the option to leave? Is that, 
do you think, going to be a factor?
    General Grosso. Well, we are concerned because we really 
don't know. We do a lot of force modeling, and we know how the 
old retirement system pulls people. So you are exactly right. 
But we do have that continuation pay in the new retirement 
system, and the intent of that is to get people to 20. So we 
are going to have to be very agile at executing that.
    Ms. McSally. Any other services?
    Admiral Burke. I would just add, we thank you for the help 
in the fiscal year 2017 NDAA that gave us the flexibility of 
the timing on that continuation period. That was very important 
to us, because we see that as a component, with existing 
retention tools that we have. Because, you know, we are going 
to probably have to modulate those other retention tools, along 
with that continuation pay, to influence retention behavior. 
So, together, we think we will be able to influence the 
behavior that we need to get them to 20 and beyond.
    Ms. McSally. Great. Thanks.
    I think, you know, the career intermission is a great first 
step in a direction of--I just think, in general, the next 
generation, they want to be able to move in and out of the 
workforce, go get different experiences. I think we need to 
open up that revolving door.
    And when you think about the millions of dollars it takes 
to bring somebody to become a 10-year pilot, for example--how 
long does it take to replace a 10-year pilot, right? It is a 
joke, right? Ten years--many of them got out and didn't go to 
the airlines. Maybe they, you know, went to start a business of 
their own or they tried some other--grass is always greener, 
and now they are realizing they miss the camaraderie, they miss 
the mission.
    So I would really urge you to look--and it is challenging 
to try and find these people--where are the experienced pilots 
that have left? Maybe they are 2, 3, 5, 8 years out. It doesn't 
matter. I mean, retraining them, with the experience they have 
had, and bringing them back even for one assignment is worth 
the investment if you can find them.
    Are you doing any initiatives to go find those that are not 
in the airlines but, you know, working in many different 
sectors of the economy?
    General Brilakis. We have a Return to Active Duty Program. 
It has to be a short MOS. We are looking for the talent. I am 
not quite sure we ever looked at anybody being away for 6 or 8 
years. Still have a PFT [physical fitness test] to get past. 
But we are open to those opportunities.
    Ms. McSally. Yeah, I just think it is that kind of, sort 
of, innovation that we have to be thinking of in order to not 
say, ``Oh, we have to produce some more pilots,'' and just 
start at the beginning of, you know, the line again.
    General Brilakis. Yes, ma'am. We have had conversations 
with industry as well, similar to what General Grosso 
discussed. And we are taking a look at the CIP [Career 
Intermission Program] and how we could fit that into a model 
that works for us.
    Admiral Burke. One of the items that we are working on 
under Sailor 2025 is more permeability between the Active and 
Reserve Components in the Navy. We are nowhere near as 
permeable as the Army and Air Force are and would like to get 
more.
    But, recently, we brought a number of Reserve Component 
airline pilots now, but they were former naval aviators, in to 
help us stand up our remote-pilot Triton project down in 
Jacksonville. And, you know, they wanted to stay, so we were 
able to help them out. So, after having gone to the airline 
industry, they wanted to come back. So there is a little bit of 
that dynamic as well.
    Ms. McSally. Great. Thanks. I am out of time. I appreciate 
it.
    Mr. Coffman. Thank you, Ms. McSally.
    Vice Admiral Burke, going back to this retention bonus 
structure, can you brief the subcommittee in terms of what you 
are looking at right now in terms of a bonus retention 
structure?
    Admiral Burke. Yes, sir. Our current structure right now, 
we have two main points of concern. So our department head area 
is the most critical, and that applies for lieutenant 
commanders. And we pay by type/model/series or community, the 
type that they are flying. Our most critical needs right now 
are electronic attack aircraft, strike fighters, and then 
helicopter mine countermeasures.
    And those folks are getting the top rates, and we are 
paying them at--current rate is $25,000 per year. And then, 
depending on type/model/series, others are less. And they are 
eligible for that after they finish their initial obligation, 
which is 8 years after winging. So typical winging occurs at 
about the 3----
    Mr. Coffman. Define ``winging.''
    Admiral Burke. Yeah, at 3 years. You get your aviator wings 
at about the 3-year point after you finish flight school.
    Mr. Coffman. Okay.
    Admiral Burke. So it is probably somewhere between 10 and 
11 years of commissioned service is when your Active Duty 
service obligation is over.
    So they become eligible for this bonus. And this bonus now 
obligates them for 5 years, which takes them through a 
department head tour and all the way through. If for some 
reason they don't select for O-4, they don't make it through 
their department head tour, we recoup.
    Mr. Coffman. Oh.
    Admiral Burke. So, you know, they don't get paid for that 
which they do not serve.
    So there is that aspect of it, and then we vary the rates. 
We put some economic factors in there. We have some economic 
modeling that we base the rates on. It is not extremely 
sophisticated. It is the best that we have available to us. We 
are working to get much more predictive analytics behind it and 
make it more sophisticated as we go forward.
    And then our second critical zone is the post command 
level. So the first command opportunity is at the O-5 for 
commander level in the Navy, and then we ask them to obligate 
to the post-command level. There are numerous post-command jobs 
on aircraft carriers, such as, you know, the operations 
officers, the air bosses, things like that, that run critical 
operations on aircraft carriers. And we need them to obligate 
to stick around a little bit longer.
    And we structure that bonus to keep them at least through 
the window where they would make O-6, the theory being that, 
once they make O-6, they will stick around a little bit longer. 
So that is a 2-year bonus at $18,000 per year.
    And both of those have had some positive effect. We are not 
getting exactly the response we want, so we are going to tweak 
both of those this year, both in terms of the bands and the 
numbers a little bit. But we don't expect to make full use of 
the legislative authority that you have given us, but we are 
going to move them both a little bit up in each direction.
    One of the ideas that we are looking at here is something 
that we did in the surface warfare community last year. We tied 
merit to the bonuses, as well as need, and early-look screeners 
for the next milestone. So, in the case of aviators, if you 
screen early for department head, that is based on a look at 
your professional performance. The idea would be perhaps they 
are eligible for the bonus earlier and could get extra payments 
for it, thereby you are securing a contract with the best 
talent sooner.
    Mr. Coffman. Okay.
    Admiral Burke. So we are looking at structuring something 
along those lines.
    But, right now, we are paying for those two specific 
windows at a fraction of the available authority you have given 
us.
    Mr. Coffman. Okay. Major General Peterson, United States 
Army, what is your approach in terms of retention bonuses going 
forward?
    General Peterson. Sir, we are looking at two specific 
targeted windows at the outset. First is at the cessation of 
their obligation for flight school, which is the 6-year mark. 
That will be the first hook for a multiyear commitment 
subsequent to that. And then at the retirement window, to 
retain that talent subsequently.
    It is too early for us to tell the impacts of the blended 
retirement and the opportunities that may pull that window left 
to that 15-year mark. But we are looking for those leading 
indicators.
    And then, last, we are exploring warrant officer aviation 
incentives, not tied to merit, but tied to actual, objective 
qualifications for advanced qualifications and skills, sir.
    Mr. Coffman. Fair enough.
    Let me just say one thing to all the services, in that I 
believe that this situation is temporary, this national 
shortage of pilots. And my concern is what always seems to 
happen in government is that there is a response to it and 
somehow there is a feeling that, once that response is baked 
in, that it is permanent.
    And I just want to stress that this is really a temporary 
solution to a temporary problem. And I fully expect that we 
will come up--that you will come up with dynamic measures that, 
as this problem recedes, that these retention bonuses recede.
    Ms. Speier.
    Ms. Speier. Thank you, Mr. Chairman.
    You know, I would also like to point out that I have a 
friend who did over 30 years at United Airlines as a captain, 
and, you know, pilots talk. And the United Airlines retirement 
system went belly up, and instead of getting $150,000 a year in 
retirement benefits per year, it was reduced to something like 
$60,000. So that is something to remember, too, in terms of the 
solid nature of the retirement system that exists in the U.S. 
Government.
    So a couple of quick questions, and I won't belabor any of 
this.
    General Grosso, there was a time in the not-so-distant past 
when the Air Force was giving the same bonus out to all pilots 
regardless of whether there was a particular need in a 
particular specialty so that, you know, a tanker pilot was 
getting the same bonus as a fighter pilot.
    Have you changed that now so that it reflects more in terms 
of what your need is?
    General Grosso. Yes, ma'am, we have. And I can give you 
great detail when you have time.
    Ms. Speier. Okay. I was kind of alarmed when I heard, in 
answer to one of my colleagues' questions about the continuing 
resolution, that we would conceivably be in a position where we 
offered a bonus to an aviator and then, because we are doing a 
CR instead of an appropriation, that we end up reneging on that 
bonus. Is that what happens?
    General Brilakis. The challenge in the CR, if it wasn't 
authorized in the previous year, we are not authorized to pay 
it. And so, if we had planned to a pay a bonus in the fiscal 
year 2018 timeframe that we weren't paying--and, remember, we 
are going to be doing a bonus for the first time in 6 years, so 
it is not in our 2017 budget. It wasn't in our 2016 budget, and 
so it won't be available to us in this 2017 year budget. And 
the flexibility, we will have to reprogram--have to go for a 
specific reprogramming action to free up the dollars to be able 
to do that.
    Ms. Speier. But we now have a contract with this aviator to 
give him this bonus, and we are reneging on it? Or you are 
saying we are reprogramming dollars so you are able to pay that 
bonus?
    General Brilakis. It is about reprogramming money.
    Ms. Speier. Got it. Okay. I think it is really important 
not to renege on these bonuses. I think that would be a 
disaster in the making.
    I think it was you, General Brilakis, who was talking about 
parts, was it not? Or was it you, Admiral Burke?
    General Brilakis. I did, ma'am. I think we both----
    Ms. Speier. Okay. So we have been focused on the pilots, 
but, as you pointed out, if you don't have the parts to fix the 
planes, the pilot can't fly. And what are we doing about the 
mechanics? Is there a shortage of mechanics that we should be 
addressing as well? Could you just----
    General Brilakis. So, for our part, on the enlisted 
maintainer side, our challenge is not necessarily the number, 
but it is also experience. Your aviation maintenance marine 
gets his basic training in his field, but on top of that there 
are additional certifications. Because aircrafters are so 
critical, and the fact is, every time you go up, we want you to 
come down in the same way, they have certifications that are 
required. Those certifications take time, upwards of a year or 
multiple years to receive all the different certifications so 
you can sign off on the maintenance.
    Our challenge has been, in the drawdown, the availability 
of those marines with those experiences, et cetera. So, on the 
enlisted side, while we do pay retention bonuses to manage the 
numbers, we are also pursuing in the beginning of this next 
retention year what we call an op-4 kicker, an additional 
payment for marines who are willing to reenlist and then go, in 
that 4-year reenlistment, 24 months in the squadron, retaining 
those capabilities.
    Because, more often than not, a marine who reenlists has a 
location option. He may want to go to recruiting duty or at the 
drill field, because our marines serve across the Marine Corps. 
This bonus is going to take that experience, hard-won 
experience, at the senior sergeant staff NCO level, retain it 
in the squadron in certain numbers, so they can train the next 
generation in those certification requirements. That is new for 
us.
    Ms. Speier. Anyone else have any comments about mechanics?
    Admiral Burke. We are in good shape, mechanics.
    Ms. Speier. Okay.
    Admiral Burke. We just----
    Ms. Speier. All right.
    General Grosso. Ma'am, we are short mechanics. Based on 
decisions made in the 2014 President's budget, we are ramping 
up accessions and having no trouble bringing new airmen in. 
But, obviously, there will be an experience gap. We expect to 
be balanced in fiscal year 2019.
    General Peterson. We are reasonably strong with respect to 
our mechanics. However, we do have experience challenges that 
have been brought on by force management levels in recent years 
where mechanics have not deployed with their units and they 
have been replaced by contractors. We are overcoming that now, 
but we will not regain that years of experience.
    Ms. Speier. Mr. Chairman, I want to ask this last question, 
but I do want everyone to think about it.
    We are not using aviators in the same way, in all 
likelihood, that we have used them in past wars. And with the 
advent of drones, I think we all have to think about the makeup 
of our forces in terms of the technological advances that have 
taken place and how we are going to engage in subsequent 
actions around the world.
    And, with that, I yield back.
    Mr. Coffman. Thank you, Ranking Member Speier.
    Just a very quick point, Major General Peterson. That 
entire issue with force management levels and leaving 
maintenance personnel behind so that we don't reach some 
artificial cap in Afghanistan and use private contractors in 
their stead was a horrible decision, in my view. And it is 
something that this subcommittee needs to revisit and make sure 
that it never occurs again.
    I wish to thank the witnesses for their testimony this 
afternoon. This has been very informative.
    There being no further business, the subcommittee stands 
adjourned.
    [Whereupon, at 3:21 p.m., the subcommittee was adjourned.]

      
=======================================================================


                            A P P E N D I X

                             March 29, 2017

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 29, 2017

=======================================================================

      

      
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 29, 2017

=======================================================================

      

                   QUESTIONS SUBMITTED BY MS. SPEIER

    Ms. Speier. In my opening statement, I discussed the importance of 
understanding the real reasons that pilots leave the service, which are 
often non-monetary. If a pilot is not happy with their assignments or 
deployment schedules, all the money in the world may not be able to 
keep them in the service. Given these issues, can each of you briefly 
explain how you are employing non-monetary incentives to retain pilots?
    General Brilakis. The Marine Corps works individually with officers 
to try and match their personal preferences with suitable requirements 
in the operating force which may positively influence an individual's 
decision to remain, vice resign. Duty station preference, unit 
preference, time on station waivers, geo-location preference, and 
assignments outside of their primary occupation are areas we look at to 
incentivize the retention of aviators, while also filling mission 
critical requirements.
    Ms. Speier. In my opening statement, I discussed the importance of 
understanding the real reasons that pilots leave the service, which are 
often non-monetary. If a pilot is not happy with their assignments or 
deployment schedules, all the money in the world may not be able to 
keep them in the service. Given these issues, can each of you briefly 
explain how you are employing non-monetary incentives to retain pilots?
    Admiral Burke. Career exit surveys indicate a number of complex, 
inter-related factors leading to pilot decisions to leave service, 
including an improving economy with increasing opportunities for 
commercial airline industry employment. Aviators also express 
dissatisfaction in their quality of service due to readiness challenges 
associated with limited aircraft availability (number of airframes and 
lack of spare parts), reduced flying hours, timely attainment of 
tactical qualifications and career progression, frequency of moves, and 
deployment lengths/time away from family. Non-monetary retention 
incentives have focused on improving quality of service and work-life 
balance through increased choice and flexibility in a successful career 
path. While relatively new, we are seeing progress through initiatives 
such as the Career Intermission Program (CIP), increased graduate 
education options, opportunities for Tours with Industry (TWI), the 
High School Senior Stability initiative, and efforts to incorporate 
personnel management process changes as part of Sailor 2025. Increasing 
numbers of aviation officers are taking advantage of CIP, which affords 
them a one-three year sabbatical for various reasons, such as starting 
a family, furthering education, or fulfilling other ambitions that 
might otherwise have caused them to leave the Navy. After intermission, 
they return to service without harm to their career progression or 
competitiveness. The intent of TWI is to familiarize a cadre of Sailors 
with corporate planning, organization, management techniques, 
innovations, and best practices by placing them with leading private 
sector corporations for one year. The experience enhances their 
professional development and better prepares them for follow-on Navy 
tours, during which their new skills can be leveraged. Under the High 
School Senior Stability initiative, when a dependent family member 
enters their junior year of high school, the Sailor may submit a 
request to remain in the same geographic location to permit the 
dependent to complete their senior year of high school. Such career 
broadening measures, aimed at increasing career flexibility, experience 
and choice, when coupled with judicious applications of monetary 
incentives, are key to improving aviation retention in the long term.
    Ms. Speier. Congress increased the aviation bonus from $25,000 to 
$35,000 in the FY17 NDAA. Vice Admiral Burke and LTG Grosso: does this 
amount provide enough flexibility to use higher bonuses to retain the 
most critical skills, while also providing the rest of the pilots with 
a lower incentive?
    Admiral Burke. End-strength and pilot production levels are not 
directly contributing to aviation retention challenges, thus neither is 
expected to improve near-term retention. While we are accessing and 
training sufficient numbers of pilots to meet requirements, mid-grade 
and senior pilots in some communities, such as Strike Fighter (VFA), 
Electronic Attack (VAQ) and Mine Warfare (HM), are leaving the Navy at 
higher-than-expected rates, challenging our ability to meet subsequent 
flying and non-flying assignment requirements. Aviation accessions are 
based on an annual demand to fill first fleet squadron billets with 
junior officers who replace incumbents vacating billets for routine 
tour rotations/progression. Retention rates of aviators after the first 
tour have historically proven sufficient in the aggregate to meet 
manning and selectivity requirements for subsequent career milestone 
billets--such as department head and command--and the many sea shore 
billets the aviation community fills. Annual aviation accessions of 
around 1,000-1,100 annually, since 2012, coupled with our ability to 
train accessions on time, has provided a sustainable model, as long as 
retention goals were being met. Today's retention challenges, in some 
communities, are occurring between the 10 and 20-year service points. 
While end-strength increases may eventually yield larger accession year 
groups that could equate to larger overall pilot inventories, 
increasing populations beyond that needed for immediate first fleet 
squadron billets would take over 10 years. Also, while increasing pilot 
production could generate more pilots for first fleet sea tours in the 
near term, creating excess populations in some fleet squadrons, this 
cadre could still choose to resign at the end of their initial minimum 
service requirement, prior to serving a critical department head tour, 
so the increase would not necessarily resolve the retention challenges 
we face today.
    Ms. Speier. In my opening statement, I discussed the importance of 
understanding the real reasons that pilots leave the service, which are 
often non-monetary. If a pilot is not happy with their assignments or 
deployment schedules, all the money in the world may not be able to 
keep them in the service. Given these issues, can each of you briefly 
explain how you are employing non-monetary incentives to retain pilots?
    General Grosso. The AF is employing several non-monetary incentives 
to improve pilot retention, to include increased assignment and 
development education flexibility, and removing dozens of non-flying 
additional duties and computer based training modules from their 
workload. Arguably, the most meaningful non-monetary incentive for 
pilot retention has been the addition of civilian contractors in flying 
squadrons to assist with laborious non-flying tasks required for day-
to-day flight operations. These individuals allow pilots to spend more 
time studying, flying, and learning how to be the best in the world at 
what they do. Although ACC is currently the only MAJCOM to have 
assigned admin contractors, PACAF, AETC, USAFE, and AFGSC should also 
have contractors in place by the spring of 2018. Additionally, 
increasing end-strength numbers will certainly help with the pilot 
shortage as many of those members will be maintenance personnel tasked 
with keeping old aircraft flying and flying is what our pilots want to 
do. Furthermore, AETC's maximum available pilot production is 1,400 
per year due to available runways, daylight and training ranges. The 
Air Force must develop additional training capacity in order to 
increase production to 1,600 pilots annually, the amount we will need 
to sustain 60 fighter squadrons and mitigate pending shortfalls in 
other platforms.
    Ms. Speier. Congress increased the aviation bonus from $25,000 to 
$35,000 in the FY17 NDAA. Vice Admiral Burke and LTG Grosso: does this 
amount provide enough flexibility to use higher bonuses to retain the 
most critical skills, while also providing the rest of the pilots with 
a lower incentive?
    General Grosso. The Air Force appreciates the $35,000 annual cap 
authorized in the FY17 NDAA. The Air Force will use the FY17 NDAA 
Aviation Bonus authority and implement using a business case model to 
identify areas of greatest need. The business case model will be run 
annually and consider manning levels (current and trend), retention 
levels (current and trend), timeline for generating replacements, and 
costs to train/generate replacements. However, based on the RAND study 
directed by the FY16 NDAA, we believe the $35,000 cap limits the 
Services' ability to retain pilots in our most critical need area 
(Fighter Pilots), but also limits the Services' ability to retain 
aviators in areas of lesser need. The RAND study suggested a higher 
bonus authority was needed to incentivize the retention levels required 
to maintain our pilot force. We will analyze the effectiveness of our 
FY17 Aviation Bonus program under current authorities and then may need 
additional support in the form of increased authority to include an 
increased Aviation Bonus ceiling.
    Ms. Speier. In my opening statement, I discussed the importance of 
understanding the real reasons that pilots leave the service, which are 
often non-monetary. If a pilot is not happy with their assignments or 
deployment schedules, all the money in the world may not be able to 
keep them in the service. Given these issues, can each of you briefly 
explain how you are employing non-monetary incentives to retain pilots?
    General Peterson. Although retention across Army Aviation is not an 
immediate problem, recent trends indicate the need for increased focus 
on Aviation Warrant Officer incentives. Retention of highly competent 
aviators is key to mitigating current personnel shortages while the 
Army produces additional aviators to fill those shortages. The Army is 
unique in that the preponderance of our Rated Aviators are Warrant 
Officers. This allows, by design, the career paths of Aviation Warrant 
Officers to focus on pilot related duties and advancement through 
specialized pilot training, with minimal requirements to serve in 
assignments outside of Aviation. The primary incentive for an Army 
Aviator to remain in service will always be the opportunity to develop 
within their craft and seek advanced pilot and leadership positions. 
The Army encourages and supports this endeavor by offering other 
incentives to assist the aviator both personally and professionally. 
Two opportunities available to Aviation Warrant Officers are the Degree 
Completion Program and Broadening Assignments such as Flight School 
Instructors and Training Center Observers. Both of these opportunities 
allow Warrant Officers a break from the high Operational Tempo that is 
common within Army Aviation units, as well as the opportunity to either 
complete their educational goals or to develop their tactical and 
technical warfighting skills. It is also an important goal for the Army 
to provide not only aviators, but all Soldiers, the ability to be 
assigned to personally desirable duty stations for a duration that 
allows predictability for the Soldier and their family. Our human 
resources personnel carefully manage this important consideration based 
on Soldier preferences and operational and institutional requirements. 
As current shortages are mitigated and manning levels improve, the Army 
will have better capacity to meet these goals. The Army is exploring 
all options to enhance the current programs available and institute 
additional programs into policy. There are opportunities within the 
Degree Completion and Broadening Assignments to expand the current 
target population providing more access to the programs. The Army will 
also continue to emphasize assignment stability within its ability to 
meet our Country's operational requirements. Critical to the success of 
any current or future program is the health of our current force. 
Manning shortages limit opportunities for aviators to serve in 
broadening or educational assignments based on requirements to man 
aircraft and units in support of Army requirements at home and abroad. 
Fixing current manning shortages will allow for these opportunities in 
the future and help to stabilize our Total Force.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MS. ROSEN
    Ms. Rosen. What parts of the personnel system (for example, 
assignments or promotions) do you assess must be changed to aid in 
retention?
    Admiral Burke. Through Sailor 2025, Navy is pursuing a dynamic set 
of approximately 45 non-monetary initiatives designed to improve 
retention across the force. Built on a framework of three pillars--a 
modernized personnel system, ready relevant learning, and career 
readiness--Sailor 2025 is a roadmap designed to change our approach to 
personnel programs by providing Sailors with choice and flexibility. 
These initiatives target modernizing personnel management and training 
systems to more-effectively find, recruit, train, and manage the 
careers of, talented people, thus improving retention and warfighting 
readiness. For example, we are modernizing Navy's fitness reporting and 
evaluation system, increasing emphasis on merit-based pay incentives, 
and continuing efforts to improve the transparency and accessibility of 
our detailing system/process for Sailors and their families. While 
existing statutory authorities provide the necessary tools to 
adequately influence current aviator retention behavior, we continually 
assess the sufficiency and effectiveness of our efforts to enable 
efficient retention, and when needed, recommend changes to provide the 
tools and flexibility needed to meet emerging demand.
    Ms. Rosen. Will the end-strength increases in the FY 17 NDAA help 
with the shortage, or are there other physical barriers to increasing 
pilot production such as school-house size or instructor cadre?
    Admiral Burke. End-strength and pilot production levels are not 
directly contributing to aviation retention challenges, thus neither is 
expected to improve near-term retention. While we are accessing and 
training sufficient numbers of pilots to meet requirements, mid-grade 
and senior pilots in some communities, such as Strike Fighter (VFA), 
Electronic Attack (VAQ) and Mine Warfare (HM), are leaving the Navy at 
higher-than-expected rates, challenging our ability to meet subsequent 
flying and non-flying assignment requirements. Aviation accessions are 
based on an annual demand to fill first fleet squadron billets with 
junior officers who replace incumbents vacating billets for routine 
tour rotations/progression. Retention rates of aviators after the first 
tour have historically proven sufficient in the aggregate to meet 
manning and selectivity requirements for subsequent career milestone 
billets--such as department head and command--and the many sea shore 
billets the aviation community fills. Annual aviation accessions of 
around 1,000-1,100 annually, since 2012, coupled with our ability to 
train accessions on time, has provided a sustainable model, as long as 
retention goals were being met. Today's retention challenges, in some 
communities, are occurring between the 10 and 20-year service points. 
While end-strength increases may eventually yield larger accession year 
groups that could equate to larger overall pilot inventories, 
increasing populations beyond that needed for immediate first fleet 
squadron billets would take over 10 years. Also, while increasing pilot 
production could generate more pilots for first fleet sea tours in the 
near term, creating excess populations in some fleet squadrons, this 
cadre could still choose to resign at the end of their initial minimum 
service requirement, prior to serving a critical department head tour, 
so the increase would not necessarily resolve the retention challenges 
we face today.
    Ms. Rosen. Since flight hours are a motivator for retention, is 
your aircraft force structure robust and healthy enough to support all 
of your minimum required pilot flying hours? Will you be able to 
increase flying time with an increased budget or will it require more 
airplanes?
    Admiral Burke. The aircraft force structure is not currently 
adequate to fulfill the minimum number of required flying hours to 
establish and maintain optimum aviation readiness. Available funding 
must be spread over a number of priorities, including depot capacity, 
readiness accounts--particularly those that buy/sustain the supply of 
aircraft parts--and procurement. Shortfalls in each of these areas 
impose risk in meeting both minimum flight hour requirements as well as 
current and future Global Force Management (GFM) operational 
commitments. While investments in the President's fiscal year 2017 
budget begin to address the gap between strike fighter inventory and 
GFM demand by fully funding depot capacity, consistent long-term 
investments will be essential to fully-funding flying hours, enabling 
depot operations, making readiness and supply accounts whole, and 
procuring replacement aircraft at a rate that outpaces consumption.
    Ms. Rosen. I am deeply concerned with how pilot shortfalls are 
impacting the Air Force service-wide, and am particularly interested to 
hear how it's affecting Nellis and Creech Air Force Bases. Can you 
please explain how these shortfalls affect the Air Force's ability to 
conduct Red Flag, their main combat training exercise, and their 
ability to maintain UAS crews at Creech and the missions those Airmen 
fly overseas?
    General Grosso. Remotely Piloted Aircraft (RPA) crew manning and 
the impact of pilot shortfalls on Nellis AFB operations are two very 
distinct and separate challenges. First, with Congressional assistance, 
the USAF implemented a ``Get Well Plan'' and Continuous Process 
Improvement Plan (CPIP) to improve RPA crew manning and stabilize RPA 
operations tempo. As a result, RPA crew manning is rapidly improving 
and we are on glide path through FY19 to stabilize the enterprise's 
operations tempo. Second, the fighter pilot shortage is straining our 
ability to leverage the world-renowned elite training and operational 
capacity at Nellis AFB. Although we will not compromise the high 
quality tactical training Red Flag provides the USAF, joint and 
coalition participants, continued fighter pilot shortages may impact 
the way we conduct these exercises in the future. However, all 
exercises and sorties are currently being flown as scheduled.
    Ms. Rosen. What parts of the personnel system (for example, 
assignments or promotions) do you assess must be changed to aid in 
retention?
    General Grosso. The assignment process is one of the areas within 
the personnel system we are working to improve. Our pilots are leaving 
because they are frustrated with the lack of predictability offered 
under our current process. The Air Force is taking steps to increase 
the transparency and flexibility of the assignment process to promote 
family stability. Our Airmen deserve an updated assignment system that 
can meet manning requirements as well as ensure mission success. 
Therefore, a beta test is currently underway that could change how we 
execute assignments. This test involves the use of algorithms to 
optimize assignments based on the needs of the Air Force and desires of 
our members and their families--an assignment system for the 21st 
century. We are also examining alternate career paths for pilots (and 
other officer career fields) other than the current one-track model. 
The intent is to investigate the ability to offer more flexibility in 
how we manage and develop the force, reviewing multiple career 
progression options such as a technical, non-command track for pilots 
to allow them to concentrate on flying duties. The Air Force has also 
reduced additional duties, removed superfluous training courses, and 
hired contractors in flying squadrons to perform burdensome 
administrative tasks. All of these efforts allow our pilots to refocus 
on their primary duty: flying.
    Ms. Rosen. Will the end-strength increases in the FY 17 NDAA help 
with the shortage, or are there other physical barriers to increasing 
pilot production such as school-house size or instructor cadre?
    General Grosso. Increases in Air Force end-strength will help 
mitigate the pilot shortage. Two primary factors are required to 
produce and sustain pilots: maintainers and aircraft. The Air Force is 
currently more than 3,400 maintainers short. End-strength increases are 
critical to reducing this shortfall. A healthy maintenance force 
provides the foundation for operation aircraft which increases sortie 
production essential for making and seasoning pilots. Additional 
physical barriers do exist in both school-house size and instructor 
cadre. Air Education and Training Command (AETC) is currently growing 
school-house capacity from 1,200 pilots per year to approximately 1,400 
pilots per year in 2020. This will be the maximum limit of pilots that 
can be produced at the current training bases. Air Force pilot 
production beyond 1,400 will require additional pilot training base to 
provide the necessary runways and training ranges. Looking further into 
the future, the Air Force must develop additional training capacity in 
order to increase production to 1,600 pilots annually, the amount we 
will need to sustain 60 fighter squadrons and mitigate pending 
shortfalls in other platforms. As a point of comparison, Major U.S. 
Airlines hired more than 4,100 pilots in 2016. Lastly, the Air Force 
needs to ensure a robust instructor pilot cadre to train new pilots. We 
look forward to working with Congress to develop retention packages 
that ensures the availability of these critical personnel.
    Ms. Rosen. Since flight hours are a motivator for retention, is 
your aircraft force structure robust and healthy enough to support all 
of your minimum required pilot flying hours? Will you be able to 
increase flying time with an increased budget or will it require more 
airplanes?
    General Grosso. The current pilot flying hours do not support all 
of the minimum training requirements. The Air Force is executing flying 
hour programs to the maximum efforts based on current maintenance 
manning and aircraft force structure. Growing Air Force end-strength 
which includes assessing additional aircraft maintenance capacity is 
critical to re-establishing a healthy maintenance foundation and making 
improvements to flying hour programs. In the fighter community, the 
current active duty force structure is too small to experience and 
season the required number of pilots. The Air Force requires additional 
fighter force structure in order to maintain a healthy fighter pilot 
inventory with the appropriate experience ratios. As overall pilot 
production numbers increase, the execution of additional flying hours 
within the existing training structure quickly become constrained by 
the limited number of existing training bases. A new basing option may 
be required in the 2020 timeframe to gain additional increases in 
production. Lastly, accelerating the acquisition of the next-generation 
trainer aircraft (T-X) is critical to providing additional pilot 
production capacity.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
